APPENDIX

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
SEP 14 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ALEJANDRO S. ESTRADA,
Petitioner-Appellant,

No. 20-15393
D.C. No. 3:18-cv-08360-MTL
District of Arizona,
Prescott

ATTORNEY GENERAL FOR THE STATE ORDER
OF ARIZONA; DAVID SHINN, Director,
Arizona Department of Corrections,
Respondents-Appellees.

Before:

RAWLINSON and BRESS, Circuit Judges.

Appellant's motion for reconsideration en banc (Docket Entry No. 5) is
denied on behalf of the court.. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed case.

FILED

UNITED STATES COURT OF APPEALS

AUG 18 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ALEJANDRO S. ESTRADA,
Petitioner-Appellant,
v.

No. 20-15393
D.C. No. 3:18-cv-08360-MTL
District of Arizona,
Prescott

ATTORNEY GENERAL FOR THE STATE ORDER
OF ARIZONA; DAVID SHINN, Director,
Arizona Department of Corrections,
Respondents-Appellees.

BefOre:

SCHROEDER and GRABER, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that "jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling." Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012).
DENIED.

APPENDIX
13

Case: 3:18-cv-08360-MTL Document 21 Filed 02/21/20 Page 7 of 7

1

Certificate of Appealability

2

Petitioner alternatively asks the Court (Doc. 19 at 9) to issue a certificate of

3

appealability. Petitioner must obtain a certificate of appealability before he may appeal

4

this Court's judgment. 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b)(1); Rule 11(a) of the

5

Rules Governing Section 2254 Cases. This Court must issue or deny a certificate of

6

appealability when it enters a final order adverse to the applicant. Rule 11(a) of the Rules

7

Governing Section 2254 Cases. A certificate of appealability may only issue when the

8

petitioner "has made a substantial showing of the denial of a constitutional right." 28

9

U.S.C. § 2253(c)(2). Petitioner has not made a substantial showing that denying the

10

petition as untimely under these facts would deny him a constitutional right. The request

11

for a certificate of appealability is denied.

12

Conclusion

13

Accordingly, having reviewed Petitioner's objections,

14

IT IS ORDERED that the Report and Recommendation (Doc. 17) is accepted.

15

IT IS FURTHER ORDERED that the Petition for Writ of Habeas Corpus (Doc.

16
17
18
19

1) is denied and dismissed with prejudice.
IT IS FURTHER ORDERED denying Petitioner's request for a Certificate of
Appealability (Doc. 19.)
Dated this 20th day of February, 2020.

20
21

Michael T. Liburdi
United States District Judge

22
23
24
25
26
27
28

-7-

Case: 3:18-cv-08360-MTL Document 22 Filed 02/21/20 Page 1 of 1

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Alejandro S Estrada,

10

Petitioner,

11

v.

12

Charles L Ryan, et al.,

13

NO. CV-18-08360-PCT-MTL
JUDGMENT IN A CIVIL CASE

Respondents.

14
15
16

Decision by Court. This action came for consideration before the Court. The
issues have been considered and a decision has been rendered.

17

IT IS ORDERED AND ADJUDGED adopting the Report and Recommendation

18

of the Magistrate Judge as the order of this Court Petitioner's Petition for Writ of

19

Habeas Corpus pursuant to 28 U. S. C. § 2254 is denied and this action is hereby

20

dismissed with prejudice.
Debra D. Lucas
Acting District Court Executive/Clerk of Court

21
.
22
23
24
25
26
27
28

February 21, 2020
s/ E. Aragon
By Deputy Clerk

Case: 3:18-cv-08360-MTL Document 17 Filed 12/23/19 Page 1 of 8

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

Alejandro S Estrada,

10

Petitioner,

11

vs.

12

David Shinn, et al.,

13

Respondents.

14

) CV 18-08360-PCT-MTL (MHB)
)
) REPORT AND RECOMMENDATION
)
)
)
)
)
)
)
)

15

TO THE HONORABLE MICHAEL T. LIBURDI, UNITED STATES DISTRICT COURT:

16

On December 26, 2018, Petitioner Alejandro S. Estrada, who is confined in the

17

Arizona State Prison Complex, filed a pro se Petition for Writ of Habeas Corpus pursuant to

18

28 U.S.C. § 2254 (Doc. 1). Respondents filed an Answer (Doc. 12), and Petitioner filed a

19

Reply (Doc. 15).

20

BACKGROUND

21

Pursuant to a plea agreement, Petitioner was convicted in Coconino County Superior

22

Court, case #CR 2008-0671, of sexual conduct with a minor and was sentenced to a 25-year

23

term of imprisonment on February 19, 2010. (Exhs. B, C, E.)

24

On April 8, 2010, Petitioner filed a notice of post-conviction relief ("PCR"). (Exh. G.)

25

In his PCR petition filed on November 4, 2010, Petitioner alleged: (1) his plea was

26

involuntary because he was not told he had a right to a jury to determine- the aggravating

27

factors; (2) his sentence was unconstitutional because the trial court based its decision on

28

facts that Petitioner did not understand and the jury should have decided the aggravating

Case: 3:18-cv-08360-MTL Document 17 Filed 12/23/19 Page 2 of 8

1 factors under Blakely v. Washington; and (3) his trial counsel was ineffective. (Exhs. H, I.)

2

The trial court summarily denied Petitioner's PCR petition on April 22, 2011. (Exh. J.)

3

Petitioner did not file a petition for review in the Arizona Court of Appeals.

4

Instead, over five years later, Petitioner filed a second PCR notice on September 12,

5

2016. (Exh. K.) In his petition, Petitioner raised the following claims: (1) his attorney was

6

ineffective for failing to explain Blakely v. Washington before he was sentenced; (2) his

7

attorney was ineffective for failing to move to have the victim submit a mental competency

8

assessment; (3) his 25-year prison term was a violation of his Eighth Amendment rights; (4)

9

he had a right to effective counsel; (5) his attorney was ineffective for failing to present

10

mitigating evidence of his drug and alcohol addiction, mental health records, physical

11

records, work records, counseling records, and socioeconomic records; (6) his attorney was

12

ineffective for failing to ask the court for a mental and physical report of the victim to

13

determine the harm done to her; (7) he had a constitutional right to have his plea agreement

14

amended so he would not be subject to a greater sentence; and (8) he had a right to set up a

15

trust account for the victim to pay for counseling and education. (Exh. K.)

16

The court denied the second PCR petition on May 1, 2017, explaining:

17

The Defendant filed a Pro-Se Rule 32 Petition for Post-Conviction Relief on
December 13, 2016. Previously, the Defendant filed for post-conviction relief
pursuant to Rule 32 on November 9, 2010. The Defendant argued then, much
as he does now, that his counsel was ineffective because he failed to explain
to him the effect of Blakely v. Washington when entering into a plea
agreement, failed to have the victim submit to a mental competency hearing,
failed to effectively assist the Defendant, failed to present mitigating evidence
at his sentencing, failed to have his plea modified to allow the Defendant a
lesser sentence, and failed to have the prosecutor set up a trust account for the
victim's counseling.

18
19
20
21
22
23
24
25
26

The Defendant also argued that the sentencing Judge abused her discretion in
sentencing the Defendant to 25 years in the Department of Corrections. This
is not a proper argument for a Rule 32 Petition. Further, the plea was stipulated
to by the parties.
With respect to the other arguments made by the Defendant, this Court finds
no colorable claim.
(Exh. N.)

27
28
2

Case: 3:18-cv-08360-MTL Document 17 Filed 12/23/19 Page 3 of 8

1

Petitioner then filed a motion for reconsideration of the court's order. (Exh. 0.) The

2

court summarily denied the motion. (Exh. P.) According to the record, Petitioner did not file

3

a petition for review in the Arizona Court of Appeals.

4

The record reflects that Petitioner filed a third PCR notice and petition on November

5

12, 2017. (Exhs. Q, R.) Petitioner argued (1) that his sentence was illegal and

6

unconstitutional because it was aggravated under a "void and obsolete statute," A.R.S. §

7

13-604.01; (2) that the trial court had no subject-matter jurisdiction to impose his aggravated

8

sentence under A.R.S. § 13-604.01; (3) that his PCR counsel was ineffective for failing to

9

present a trial IAC claim that his trial counsel was ineffective for "colluding" with the

10

prosecutor and court to sentence him under an invalid statute, A.R.S. § 13-604.01; and (4)

11

newly discovered facts, significant change in the law, cause and prejudice, and fundamental

12

miscarriage of justice. (Exhs. R, S.)

13

On April 18, 2018, the court denied Petitioner's petition, stating, "[t]he Defendant

14

alleged in 2011 that his plea was not voluntary or intelligent that his sentence was

15

unconstitutional and that his trial counsel was ineffective. Those same issues are alleged in

16

the latest petition, with additional claims. The claims are not only untimely, they are also

17

precluded under Rules 32.2(a)(2) and 32.(4)." (Exh. U.)

18

Thereafter, the record reflects that Petitioner filed a petition for review in the Arizona

19

Court of Appeals, based on the trial court's denial of his third PCR petition. (Exhs. V, W.)

20

The appellate court summarily denied relief, finding Petitioner did not establish that the trial

21

court abused its discretion by denying his PCR petition. (Exh. X.)

22

In his habeas petition, Petitioner raises three grounds for relief. In Ground One,

23

Petitioner alleges a violation of his Fifth and Sixth Amendment rights. In Ground Two, he

24

alleges the trial court lacked subject matter jurisdiction to impose a sentence pursuant to a

25

non-existent statute in violation of his Fifth and Sixth Amendment rights. In Ground Three,

26

Petitioner alleges that he received the ineffective assistance of appellate counsel.

27

\\\

28
3

Case: 3:18-cv-08360-MTL Document 17 Filed 12/23/19 Page 4 of 8

1
2
3

DISCUSSION
In their Answer, Respondents contend that Petitioner's habeas petition is untimely
and, as such, must be denied and dismissed.

4

The Antiterrorism and Effective Death Penalty Act of 1996 ("AEDPA") imposes a

5

statute of limitations on federal petitions for writ of habeas corpus filed by state prisoners.

6

See 28 U.S.C. § 2244(d)(1). The statute provides:

7
8
9

A 1-year period of limitation shall apply to an, application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. The
limitation period shall run from the latest of —
the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;

10
11

the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such State action;

12
13

the date on which the constitutional right asserted was initially recognized
by the Supreme Court, if the right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or

14
15

the date on which the factual predicate of the claim or claims presented
could have been discovered through the exercise of due diligence.

16

An "of-right" petition for post-conviction review under Arizona Rule of Criminal

17

Procedure 32, which is available to criminal defendants who plead guilty, is a form of "direct

18

review" within the meaning of 28 U.S.C. § 2244(d)(1)(A). See Summers v. Schriro, 481 F.3d

19

710, 711 (9' Cir. 2007). Therefore, the judgment of conviction becomes final upon the

20

conclusion of the Rule 32 of-right proceeding, or upon the expiration of the time for seeking

21

such review. See id.

22

Additionally, "[t]he time during which a properly filed application for State post-

23

conviction or other collateral review with respect to the pertinent judgment or claim is

24

pending shall not be counted toward" the limitations period. 28 U.S.C. § 2244(d)(2); see Lott

25

v. Mueller, 304 F.3d 918, 921 (9th Cir. 2002). A post-conviction petition is "clearly pending

26

after it is filed with a state court, but before that court grants or denies the petition." Chavis

27

v. Lemarque, 382 F.3d 921, 925 (9' Cir. 2004). A state petition that is not filed, however,

28

within the state's required time limit is not "properly filed" and, therefore, the petitioner is
-4-

Case: 3:18-cv-083 0-MTL Document 17 Filed 12/23/19 Page 5 of 8

1

not entitled to statutory tolling. See Pace v. DiGuglielmo, 544 U.S. 408, 413 (2005). "When

2

a postconviction petition is untimely under state law, 'that [is] the end of the matter' for

3

purposes of § 2244(d)(2)." Id. at 414.

4

In Arizona, post-conviction review is pending once a notice of post-conviction relief

5

is filed even though the petition is not filed until later. See Isley v. Arizona Department of

6

Corrections, 383 F.3d 1054, 1056 (9th Cir. 2004). An application for post-conviction relief

7

is also pending during the intervals between a lower court decision and a review by a higher

8

court. See Biggs v. Duncan, 339 F.3d 1045, 1048 (9th Cir. 2003) (citing Carey v. Saffold, 536

9

U.S. 214, 223 (2002)). However, the time between a first and second application for post-

10

conviction relief is not tolled because no application is "pending" during that period. See id.

11

Moreover, filing a new petition for post-conviction relief does not reinitiate a limitations

12

period that ended before the new petition was filed. See Ferguson v. Palmateer, 321 F.3d

13

820, 823 (9th Cir. 2003).

14

The statute of limitations under the AEDPA is subject to equitable tolling in

15

appropriate cases. See Holland v. Florida, 560 U.S. 631, 645-46 (2010). However, for

16

equitable tolling to apply, a petitioner must show "`(1) that he has been pursuing his rights

17

diligently and (2) that some extraordinary circumstances stood in his way'" and prevented

18

him from filing a timely petition. Id. at 2562 (quoting Pace, 544 U.S. at 418).

19

The Court finds that Petitioner's Petition for Writ of Habeas Corpus is untimely. On

20

February 19, 2010, the trial court sentenced Petitioner pursuant to the terms set forth in the

21

plea agreement. By pleading guilty, Petitioner waived his right to a direct appeal, and had 90

22

days to file an "of-right" petition for post-conviction relief under Rule 32 of the Arizona

23

Rules of Criminal Procedure. Petitioner filed his timely PCR petition on April 8, 2010, and

24

the trial court summarily denied the petition on April 22, 2011. Petitioner then had 30 days

25

to file a petition for review to the Arizona Court of Appeals — which he failed to do.

26

Thus, Petitioner's case became final and the statute of limitations began running on

27

May 22, 2011. Petitioner was required to initiate habeas proceedings on or before May 22,

28

2012. Petitioner filed his habeas petition on December 26, 2018. Absent any tolling, his
-5-

Case: 3:18-cv-08360-MTL Document 17 Filed 12/23/19 Page 6 of 8

1

habeas petition untimely. See United States v. Marcello, 212 F.3d 1005, 1010 (7th Cir. 2000)

2

(federal habeas petition submitted one day late was properly dismissed as untimely under

3

AEDPA, noting that a "missed" deadline "is not grounds for equitable tolling"); Hartz v.

4

United States, 419 Fed.Appx. 782, 783 (9th Cir. 2011) (unpublished) (affirming dismissal

5

of federal habeas petition where petitioner "simply missed the statute of limitations deadline

6

by one day").

7

Petitioner's commencement of his second and third successive PCR proceedings on

8

September 12, 2016 and November 12, 2017, respectively, did not toll the limitations period.

9

The proceedings were filed after the limitations period had expired, and, therefore, did not

10

toll the limitations period. See Ferguson, 321 F.3d at 823 ("[S]ection 2244(d) does not permit

11

the re-initiation of the [federal 1-year] limitations period that has ended before the state

12

petition was filed."). Furthermore, it appears that these PCR proceedings were successive and

13

untimely and, as such, were not "properly filed." See Pace, 544 U.S. at 413-14.

14

The Ninth Circuit recognizes that the AEDPA' s limitations period may be equitably

15

tolled because it is a statute of limitations, not a jurisdictional bar. See Calderon v. United

16

States Dist. Ct. (Beeler), 128 F.3d 1283, 1288 (9th Cir. 1997), overruled in part on other

17

grounds by Calderon v. United States Dist. Ct. (Kelly), 163 F.3d 530, 540 (9th Cir. 1998).

18

Tolling is appropriate when "'extraordinary circumstances' beyond a [petitioner's] control

19

make it impossible to file a petition on time." Id.; see Miranda v. Castro, 292 F.3d 1063,

20

1066 (9th Cir. 2002) (stating that "the threshold necessary to trigger equitable tolling [under

21

AEDPA] is very high, lest the exceptions swallow the rule") (citations omitted). "When

22

external forces, rather than a petitioner's lack of diligence, account for the failure to file a

23

timely claim, equitable tolling of the statute of limitations may be appropriate." Miles v.

24

Prunty, 187 F.3d 1104, 1107 (9th Cir. 1999). A petitioner seeking equitable tolling must

25

establish two elements: "(1) that he has been pursuing his rights diligently, and (2) that some

26

extraordinary circumstance stood in his way." Pace, 544 U.S. at 418. Petitioner must also

27

establish a "causal connection" between the extraordinary circumstance and his failure to file

28

6

Case: 3:18-cv-08360-MTL Document 17 Filed 12/23/19 Page 7 of 8

1 a timely petition. See Bryant v. Arizona Attorney General, 499 F.3d 1056, 1060 (9th Cir.

2

2007).

3

Petitioner attempts to explain his untimeliness by summarily stating the following:

4

The untimeliness of the petition is caused by: 1) ineffective assistance of trial
counsel []; 2) ineffective assistance of appellate counsel []; 3) significant
change in the law or a new rule of constitutional law; 4) newly discovered
material fact [1.

5
6
7

In addition "cause and prejudice" and "fundamental miscarriage of justice"
excused any procedural default.

8

Furthermore, the state court reached the merit of Estrada' s claims and denied
him relief.

9
10

(Doc. 1.) Moreover, in his reply, Petitioner addresses the merits of his claims and responds
to Respondents' argument that Petitioner's claims are procedurally defaulted.

11

The Court finds that Petitioner's conclusory, one-sentence excuses for his

12
untimeliness fail to demonstrate that he has been pursuing his rights diligently, and that some
13
extraordinary circumstance stood in his way. Indeed, Petitioner provides nothing to explain
14
why he failed to file a petition for review to the Arizona Court of Appeals after the denial of
15
16
17

his first PCR petition; waited over five years to file his successive, untimely second PCR
petition; waited almost four months before filing his third untimely PCR petition; and then
filed his habeas petition over six years too late.

18
19
20
21
22

Furthermore, a petitioner' s pro se status, indigence, limited legal resources, ignorance
of the law, or lack of representation during the applicable filing period do not constitute
extraordinary circumstances justifying equitable tolling. See, e.g., Rasberry v. Garcia, 448
F.3d 1150, 1154 (9th Cir. 2006) ("[A] pro se petitioner's lack of legal sophistication is not,
by itself, an extraordinary circumstance warranting equitable tolling.").

23

Accordingly, Petitioner is not entitled to any tolling and his habeas petition is

24
untimely.
25
26
27

\\\
\\\
\\\

28
7

Case: 3:18-cv-08360-MTL Document 17 Filed 12/23/19 Page 8 of 8

1

CONCLUSION

2

Having determined that Petitioner's habeas petition is untimely, the Court will

3

recommend that Petitioner's Petition for Writ of Habeas Corpus be denied and dismissed

4

with prejudice.

5
6

IT IS THEREFORE RECOMMENDED that Petitioner's Petition for Writ of
Habeas Corpus (Doc. 1) DENIED and DISMISSED WITH PREJUDICE;

7

IT IS FURTHER RECOMMENDED that a Certificate of Appealability and leave

8

to proceed in forma pauperis on appeal be DENIED because the dismissal of the Petition is

9

justified by a plain procedural bar and jurists of reason would not find the procedural ruling

10

debatable.

11

This recommendation is not an order that is immediately appealable to the Ninth

12

Circuit Court of Appeals. Any notice of appeal pursuant to Rule 4(a)(1), Federal Rules of

13

Appellate Procedure, should not be filed until entry of the district court's judgment. The

14

parties shall have fourteen days from the date of service of a copy of this recommendation

15

within which to file specific written objections with the Court. See 28 U.S.C. § 636(b)(1);

16

Rules 72, 6(a), 6(b), Federal Rules of Civil Procedure. Thereafter, the parties have fourteen

17

days within which to file a response to the objections. Pursuant to Rule 7.2, Local Rules of

18

Civil Procedure for the United States District Court for the District of Arizona, objections

19

to the Report and Recommendation may not exceed seventeen (17) pages in length. Failure

20

timely to file objections to the Magistrate Judge's Report and Recommendation may result

21

in the acceptance of the Report and Recommendation by the district court without further

22

review. See United States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th Cir. 2003). Failure

23

timely to file objections to any factual determinations of the Magistrate Judge will be

24

considered a waiver of a party's right to appellate review of the findings of fact in an order

25

or judgment entered pursuant to the Magistrate Judge's recommendation. See Rule 72,

26

Federal Rules of Civil Procedure.

27
28

DATED this 23rd day of December, 2019.

Mitatti:Zt4A",4Lf
Michelle H. Bums
United. States Magistrate Judge

APPENDIX

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

ARIZONA COURT OF APPEALS
DIVISION ONE
STATE OF ARIZONA, Respondent,

v.
ALEJANDRO ESTRADA, Petitioner.
No. 1 CA-CR 18-0314 PRPC
FILED 8-7-2018

Appeal from the Superior Court in Coconino County
No. CR2008-0671
The Honorable Jacqueline Hatch, Judge
REVIEW GRANTED AND RELIEF DENIED
COUNSEL
Coconino County Attorney's Office, Flagstaff
By William P. Ring

Counsel for Respondent
Alejandro Estrada, Florence

Petitioner

MEMORANDUM DECISION
Presiding Judge Randall M. Howe, Judge Jennifer M. Perkins, and Judge
Peter. B. Swann delivered the decision of the Court.

STATE v. ESTRADA
Decision of the Court
PER CURIAM:

¶1
Petitioner Alejandro Estrada seeks review of the superior
court's order denying his petition for post-conviction relief, filed pursuant
to Arizona Rule of Criminal Procedure 32.1. This is petitioner's third,
successive petition.
¶2
Absent an abuse of discretion or error of law, this court will
not disturb a superior court's ruling on a petition for post-conviction relief.
State v. Gutierrez, 229 Ariz. 573, 577 ¶ 19 (2012). It is petitioner's burden to
show that the superior court abused its discretion by denying the petition
for post-conviction relief. See State v. Poblete, 227 Ariz. 537, 538 ¶ 1 (App.
2011) (petitioner has burden of establishing abuse of discretion on review).
We have reviewed the record in this matter, the superior
¶3
court's order denying the petition for post-conviction relief, and the petition
for review. We find that petitioner has not established an abuse of
discretion.
¶4

For the foregoing reasons, we grant review and deny relief.

IN

_ SUPERIOR COURT OF THE ST. OF ARIZONA
IN AND FOR THE COUNTY OF COCONINO

Jacqueline Hatch, Judge
Division 1
Date: April 18, 2018
STATE OF ARIZONA,
Plaintiff,
vs.
ALEJANDRO ESTRADA,
Defendant.

Vivian Johns Judicial Assistant
)
)
)
)
)
)
)
)
)
)

Case No. CR2008-0671

The Defendant filed a second Rule 32 Petition for Post-Conviction Relief on November
15, 2017. The State responded and the Defendant replied. This is the Defendant's third
petition for relief pursuant to Rule 32. Defendant's first Petition was denied on all grounds on
April 22, 2011. The Defendant alleged in 2011 that his plea was not voluntary or intelligent,
that his sentence was unconstitutional and that his trial counsel was ineffective. Those same
issues are alleged in the latest petition, with additional claims. The claims are not only
untimely, they are also precluded under Rules 32.2(a)(2) and 32.4(a).
Therefore, this Court finds no colorable claim and the Defendant's Petition is denied.

ueline Hatch, Judge

cc:

County Attorney, c/o Courthouse Box
Public Defender, c/o Counnouse PDX
Alejandro Egtrada, #251095, ASPC-FlOrence South Unit, P.O. Box 8400, FlorenCe, AZ

IN THE SUPERIOR COURT OF THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF COCONINO
Jacqueline Hatch, Judge
Division 1
Date: May 1, 2017

Vivian Johns, Judicial Assistant

STATE OF ARIZONA,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
ALEJANDRO ESTRADA,
Defendant.

Case No. CR2008-0671
UNDER ADVISEMENT
RULING

ACTION: UNDER ADVISEMENT RULING RE:
The Defendant filed a Pro-Se Rule 32 Petition for Post Conviction Relief on December 13,
2016. Previously, the Defendant filed for post conviction relief pursuant to Rule 32 on
November 9, 2010. The Defendant argued then, much as he does now, that his counsel was
ineffective because he failed to explain to him the effect of Blakely v. Washington when
entering into a plea agreement, failed to have the victim submit to a mental competency
hearing, failed to effectively assist the Defendant, failed to present mitigating evidence at his
sentencing, failed to have his plea modified to allow the Defendant a lesser sentence, and
failed to have the prosecutor set up a trust account for the victim's counseling.
The Defendant also argued that the sentencing Judge abused her discretion in sentencing
the Defendant to 25 years in the Department of Corrections. This is not a proper argument for
a Rule 32 Petition. Further, the plea was stipulated to by the parties.
With respect to the other arguments made by the Defendant, this Court finds no colorable
claim.
The Defendant's Petition is, therefore, denied.

queline Hatch, Judge

cc:

County Attorney, c/o Courthouse Box
Public Defender, do Courthouse Box
Alejandro Estrada, #251095, ASPC-Florence South Unit, P.O. Box 8400, Florence, AZ

1

IN THE SUPERIOR COURT OF THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF COCONINO
Jacqueline Hatch, Judge
Division 1
Date: December 5, 2016

Vivian Johns, Judicial Assistant

STATE OF ARIZONA,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
ALEJANDRO ESTRADA,
Defendant.

Case No. CR2008-0671

UNDER ADVISEMENT
RULING

ACTION: UNDER ADVISEMENT RULING RE:
Defendant filed Notice of Post-Conviction Relief on September 14, 2016. Previously, the Defendant
filed for post-conviction relief on November 9, 2010. Defendant was appointed counsel to represent
him. This is Defendant's second petition and the Court will not again appoint counsel. Defendant
can proceed to file his Petition.

cqueline Hat

cc:

Judge

County Attorney, c/o Courthouse Box
Public Defender, do Courthouse Box
Alejandro Estrada, #251095, ASPC-Florence South Unit, P.O. Box 8400, Florence, AZ

IN THE SUPERIOR COURT OF THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF COCONINO
Jacqueline Hatch, Judge
Division 1
Date: April 22, 2011

Kathy Sandstrom, Judicial Assistant
ORDER

THE STATE OF ARIZONA,
Case No. CR 2008-0671

Plaintiff,
v.
ALEJANDRO SOTELO ESTRADA,
Defendant.

ACTION:

Defendant's Petition for Post-Conviction Relief

The Court is in receipt of the following:
Defendant's Pro Per Petition for Post-Conviction Relief
State's Response -to Petition for Post Conviction Relief
IT IS ORDERED Denying Defendant's Petition for Post Conviction Relief.

Jac• ue
cc:

Hatch, Judge

use Box
County Attorney, c/o Co
Alejandro Estrada#251095, ASPC-Florence South Unit, P. O. Box 8400,
Florence, AZ 85132
Allen Gerhardt, c/o Public Defender's Office (courtesy copy)
Docket

Additional material
from this filing is
available in the
Clerk's Office.

